Report No. DODIG-2013-054               March 13, 2013




       DoD Efforts to Meet the Requirements of the
    Improper Payments Elimination and Recovery Act in
                        FY 2012
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector General
website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports Distribution
Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFR                           Agency Financial Report
DFAS                          Defense Finance and Accounting Service
IPERA                         Improper Payments Elimination and Recovery Act of 2010
IPIA                          Improper Payments Information Act of 2002
OMB                           Office of Management and Budget
SBR                           Statement of Budgetary Resources
USACE                         U.S. Army Corps of Engineers
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                                 DoD
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                           March 13, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER, DOD
               COMMANDING GENERAL AND CHIEF OF ENGINEERS,
                 U.S. ARMY CORPS OF ENGINEERS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SUBJECT: DoD Efforts to Meet the Requirements of the Improper Payments
         Elimination and Recovery Act in FY 2012 (Report No. DODIG-2013-054)

We are providing this report for your info1mation and use. The Under Secretary of
Defense (Comptroller)/ChiefFinancial Officer, DoD, met five of the six requirements of
the "Improper Payments E limination and Recovery Act of201 0." However, improper
payments increased in the Defense Finance and Accounting Service Travel Pay category,
and the DoD did not meet reduction targets in that category.

We considered management comments on a discussion draft of this report when
preparing the final report. The management comments confonned to the requirements of
DoD Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5945.



                                             J~V~
                                             Lorin T. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-054 (Project No. D2013-D000DC-0034.000)                March 13, 2013


               Results in Brief: DoD Efforts to Meet the 

               Requirements of the Improper Payments 

               Elimination and Recovery Act in FY 2012 

                                                      reviews of travel vouchers were not adequate to
What We Did                                           prevent improper payments. As a result,
We determined whether the DoD complied with           improper payments increased in travel, and the
Public Law 107-300, “Improper Payments                DoD did not achieve the improper payment
Information Act of 2002,” November 26, 2002,          reductions intended in IPERA for DFAS Travel
as amended by Public Law 111-204, “Improper           Pay or fully comply with IPERA in FY 2012.
Payments Elimination and Recovery Act of
2010,” July 22, 2010 (IPERA). We reviewed             The USD(C)/CFO made other program
the DoD reporting in the “FY 2012 Agency              improvements during FY 2012; including using
Financial Report” (AFR), Addendum A, “Other           statistical sampling of contract and vendor
Accompanying Information.”                            payments, as well as reviewing additional
                                                      military health benefit programs that had
                                                      previously not been included in IPERA reviews.
What We Found                                         However, other challenges remained, including
The Office of the Under Secretary of Defense          $12.3 billion in outlays that were not reviewed
(Comptroller)/Chief Financial Officer, DoD            for improper payments but should have been.
(USD[C]/CFO) published the FY 2012 AFR                As a result, the USD(C)/CFO did not provide
showing that the DoD met five of the six              accurate improper payment estimates.
requirements of the IPERA. Specifically, the
DoD:                                                  What We Recommend
                                                      We recommend that the Under Secretary of
      published an AFR,
                                                      Defense (Comptroller)/Chief Financial Officer:
      conducted program specific risk
                                                        work with Military Departments and
       assessments;
                                                         Defense Agencies to develop metrics and
      published improper payment estimates;
                                                         quality assurance goals as well as
      published corrective action plans; and            programmatic corrective action plans for
      reported improper pay rates of less than          authorizing/certifying officials who certify
       10 percent.                                       vouchers that result in an improper payment,
                                                         including holding those officials financially
The DoD did not meet the established reduction           liable where appropriate; and
target for one of its eight payment programs,           submit a remediation plan as required by
Defense Finance and Accounting Service                   IPERA.
(DFAS) Travel Pay.

The USD(C)/CFO set a FY 2012 reduction
                                                      Management Comments and
target for DFAS Travel Pay at 3.27 percent in         Our Response
the DoD FY 2011 AFR. However, the actual              The Deputy Chief Financial Officer provided
improper payments reported in the DoD                 comments in response to this report.
FY 2012 AFR for DFAS Travel Pay were                  Management comments were responsive to the
5 percent of total outlays, or $419.3 million.        recommendations. Please see the
This occurred because authorizing officials’          recommendations table on the back of this page.
                                                  i
Report No. DODIG-2013-054 (Project No. D2013-D000DC-0034.000)      March 13, 2013

Recommendations Table

         Management                Recommendations         No Additional Comments
                                  Requiring Comment               Required
Under Secretary of Defense                                1 and 2
(Comptroller)/Chief Financial
Officer, DoD




                                         ii
Table of Contents

Introduction                                                                 1      


      Audit Objective                                                        1

      Background on the Improper Payments Elimination and Recovery Act       1

      Internal Controls Over the Identification and Reporting 

         of Improper Payments                                                2


Finding. DoD Met Five of the Six Improper Payments Elimination and Recovery 

Act Requirements and Made Significant Program Improvements                   3


      DoD Properly Published an Agency Financial Report for FY 2012          3

      DoD Identified Eight Payment Programs Susceptible to


        Improper Payments                                                    4

      Statistical Sampling and Projection of Improper Payments               4

      Corrective Actions to Further Reduce Improper Payments                 6

      Reported Improper Payment Rates were Below the OMB 

        Established Threshold                                                6

      Improper Payment Estimates Increased for One of the Eight 

        Payment Programs                                                     7

      DoD Also Met an Additional OMB Requirement to Report on Efforts to 

        Recover Improper Payments                                            8

      Disclosures on Accuracy and Completeness Showed Weaknesses in 

        Improper Payments Reviews                                            8

      Remediation for Non-Compliance                                         9

      Management Corrective Actions                                          9

      Recommendations, Management Comments, and Our Response                 10 


Appendix. Scope and Methodology                                              11 


      Use of Computer-Processed Data                                         11 

      Use of Technical Assistance                                            11 

      Prior Coverage on Improper Payments                                    11 


Management Comments                                                          13     

Introduction
Audit Objective
Our objective was to determine whether the DoD complied with Public Law 107-300,
“Improper Payments Information Act of 2002,” November 26, 2002, as amended by
Public Law 111-204, “Improper Payments Elimination and Recovery Act of 2010,”
July 22, 2010. The audit was required by the 2010 Act. See the Appendix for our scope
and methodology and prior coverage of improper payments.

Background on the Improper Payments Elimination and
Recovery Act
On July 22, 2010, the President signed Public Law 111-204, “Improper Payments
Elimination and Recovery Act of 2010” (IPERA), which amended the “Improper
Payments Information Act of 2002” (IPIA). The Office of Management and Budget
(OMB) issued Circular A-123, Appendix C, “Requirements for Effective Measurement
and Remediation of Improper Payments,” parts I and II, April 14, 2011, as guidance for
agencies to implement the requirements of IPERA.

IPERA Compliance Requirements
IPERA section 3(a) states that the term “compliance” means that the agency:
    		 published an annual financial statement for the most recent fiscal year and posted
        that report and any accompanying materials required under OMB guidance on the
        agency website;
    		 conducted a program-specific risk assessment for each program or activity;
    		 published improper payments1 estimates for all programs and activities in the
        accompanying materials to the annual financial statement;
    		 published programmatic corrective action plans…that the agency may have in the
        accompanying materials to the annual financial statement;
    		 published improper payments reduction targets…that the agency may have in the
        accompanying materials to the annual financial statement for each program
        assessed to be at risk, and is meeting such targets; and
    		 reported an improper payment rate of less than 10 percent for each program and
        activity for which an estimate was published.
1
  An improper payment is any payment that should not have been made or that was made in an incorrect
amount under statutory, contractual, administrative, or other legally applicable requirements. Incorrect
amounts are overpayments or underpayments made to eligible recipients (including appropriate denials of
payment or service, any payment that does not account for credit for applicable discounts, payments that
are for an incorrect amount, and duplicate payments). Improper payments also include payments made to
ineligible recipients or for ineligible goods or services, or payments for goods or services not received
(except for such payments authorized by law). Improper payments also include payments when an
agency’s review is unable to determine whether the payments were proper as a result of insufficient or lack
of documentation.

                                                     1


OMB implementing guidance added an additional requirement for determining agency
compliance. Specifically, OMB Circular A-123, appendix C, part I, requires agencies to
report information on efforts to recapture improper payments.

IPERA section 3(b) requires the Inspector General to annually review and determine
agency compliance with IPERA. Implementing guidance requires the office of the
agency Inspector General to submit a report with its determination on the agency’s
compliance to the head of the agency, Senate Homeland Security and Governmental
Affairs Committee, House Committee on Oversight and Governmental Reform,
Comptroller General, and OMB Controller, on an annual basis within 120 days of the
AFR issuance.

If an agency did not meet one or more of these requirements, it was not compliant with
IPERA. IPERA implementing guidance encourages the office of the agency Inspector
General to evaluate, as part of its review of these improper payment elements, the
accuracy and completeness of agency reporting and evaluate agency performance in
reducing and recapturing improper payments. The guidance also encourages the office of
the agency Inspector General, as part of its report, to include any recommendations for
actions to improve the agency’s performance in reducing improper payments.

Internal Controls Over the Identification and Reporting
of Improper Payments
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires the DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. The DoD self-identified
internal control weaknesses related to improper payment identification and reporting in
its “FY 2012 Agency Financial Report.” Specifically, the DoD reported that the
Statement of Budgetary Resources was not auditable, and as a result, the DoD could not
reconcile payments to total DoD outlays to ensure that it identified and reviewed all
payment programs. As a result of that weakness, DFAS reported $12.3 billion in outlays
that were not reviewed for improper payments. Disbursements made by the Navy
Enterprise Resource Planning System totaling approximately $1.4 billion were not
included in the AFR because the sampling and review plan was not in place early
enough in FY 2012 to report improper payments in the AFR. We are not making any
recommendations to correct those internal control weaknesses because USD(C)/CFO
disclosed these problem areas and estimated completion dates for auditability.
The DoD did not meet reduction targets for travel payments made by Defense Finance
and Accounting Service (DFAS) due to inadequate reviews of travel vouchers by
approving officials. We identified problems that the approving/certifying officials
should have detected during their travel voucher review, including incorrect meal rates,
missing receipts for airfare and lodging, and payments where the receipt did not agree
with the claim. We will provide a copy of the report to the senior official in charge of
internal controls for USD(C)/CFO.



                                           2


Finding. DoD Met Five of the Six Improper
Payments Elimination and Recovery Act
Requirements and Made Significant Program
Improvements
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO) published the FY 2012 AFR showing that the DoD met five of the six
requirements of the IPERA. Specifically, the DoD:

      published an AFR,
      conducted program specific risk assessments,
      published improper payment estimates,
      published corrective action plans, and
      reported improper pay rates of less than 10 percent.

The DoD did not meet the requirement to achieve all reduction targets. Specifically,
DFAS did not meet the reduction target for DFAS Travel Pay (one of the eight DoD
payment programs), with total reported outlays of $8.4 billion. OMB Circular A-123,
appendix C, part II, defines compliance as having published and met annual reduction
targets for each program assessed to be at risk for improper payments.

USD(C)/CFO set a FY 2012 reduction target for DFAS Travel Pay at 3.27 percent in its
FY 2011 AFR. However, the actual improper payments reported in the DoD FY 2012
AFR for DFAS Travel Pay were 5 percent of total outlays, or $419.3 million. This
occurred because authorizing officials’ reviews of travel vouchers were not adequate to
prevent improper payments. As a result, the DoD did not achieve the improper payment
reductions intended in IPERA for DFAS Travel Pay or fully comply with IPERA in
FY 2012.

The USD(C)/CFO made program improvements during FY 2012, including statistical
projection of improper payment error rates for contract and vendor payments, as well as
reviewing additional military health benefit programs that had previously not been
included in IPERA reviews. However, challenges remained related to fully capturing
improper payments. Specifically, DFAS identified $12.3 billion in outlays that were not
reviewed for improper payments but should have been. As a result, the USD(C)/CFO did
not provide accurate improper payment estimates.

DoD Properly Published an Agency Financial Report for
FY 2012
The DoD issued its FY 2012 AFR on November 15, 2012, and published the AFR on its
website. USD(C)/CFO complied with the IPERA requirement to publish an AFR. OMB
Circular A-123, Appendix C, Part I, “Improper Payments Elimination and Recovery,”
April 14, 2011, requires that agencies report to the President and Congress an estimate of

                                            3


the annual amount of improper payments for all programs and activities determined to be
susceptible to significant improper payments. OMB Circular A-136 Revised, “Financial
Reporting Requirements,” August 3, 2012, required that the DoD issue the report by
November 15, 2012.

DoD Identified Eight Payment Programs Susceptible to
Improper Payments
USD(C)/CFO met the IPERA requirement to conduct program-specific risk assessments.
OMB Circular A-123, appendix C, part I, required agencies to establish a systematic
method of identifying programs susceptible to significant improper payments and stated
that the systematic method could be a quantitative evaluation based on a statistical
sample or it could take into account risk factors.

According to the FY 2012 AFR, “Because OMB determined that all DoD payments are
risk susceptible, the Department maintains a more conservative position than required by
IPERA and considers all payment categories as high risk, annually testing and reporting
improper payments in all six categories.”2

USD(C)/CFO identified the following eight programs, with combined outlays totaling
approximately $677.89 billion:

       Military Health Benefits,
       Military Pay,
       Civilian Pay,
       Military Retirement,
       Travel Pay,
       Commercial Pay,
       U.S. Army Corps of Engineers (USACE) Travel Pay, and
       USACE Commercial Pay.

Statistical Sampling and Projection of
Improper Payments
USD(C)/CFO met the IPERA requirement to publish improper payment estimates for
programs identified as susceptible to significant improper payments. OMB Circular A-
123, appendix C, part I, requires agencies to publish improper payment estimates for all
programs identified as susceptible to significant improper payments under its risk
assessment.

The DoD made program improvements during FY 2012, including statistical sampling
and projection of improper payment error rates for contract and vendor payments as well
as reviewing additional military health benefit programs that had previously not been

2
 The DoD AFR discusses “six categories” but reports on eight programs because USACE Travel and
Commercial Pay are reported separately from DFAS Travel Pay and DFAS Commercial Pay.

                                                 4


included in IPERA reviews. The DoD still has other challenges related to improper
payments including the $12.3 billion in outlays that were not reviewed for improper
payments but should have been. As a result, the USD(C)/CFO did not provide accurate
improper payment estimates.

USD(C)/CFO reported in the FY 2012 AFR improper payment estimates for each of the
eight programs identified under the risk assessment as susceptible to significant improper
payments. The improper payment rates for the eight programs ranged from 0.02 to 5.00
percent. The FY 2012 AFR contained the following estimates and percentages (see
Table).

        Table. FY 2012 Improper Payment Estimates for the High-Risk Programs
                           Outlays                 Improper Payments
                                                                  Estimated
                                                                  Improper
         Program        Total (millions) Error Percentage     Payments(millions)
    Military Health                  $20,900                                                 $31.3
                                                                 0.15
    Benefits
    Military Pay                      95,500                     0.24                        226.8
    Civilian Pay                      59,000                     0.14                         81.8
    Military Retirement               55,100                     0.02                         13.1
    Travel Pay                         8,400                     5.00                        419.3
    Commercial Pay                   408,700                     0.02                        100.1
    USACE Travel Pay                     190                     0.04                          0.8
    USACE Commercial                  30,100                                                   8.8
                                                                 0.03
    Pay
     Total                          $677,890                      0.133                     $882.0

According to the DoD FY 2012 AFR, in prior years, DFAS did not use a statistically
valid estimation process. The FY 2012 Commercial Pay improper payments using the
prior year methodology were $318.3 million, versus the estimated $100.1 million
estimate from statistical sampling methods. According to the USD(C)/CFO, the main
reason for the difference is due to the sample design. Their statistical sample selected
invoices without regard to dollar value, and for sampling purposes a $10 million invoice
had the same chance of being sampled as a $100 invoice.

USD(C)/CFO reported that the DoD was unable to reconcile its outlays to the quarterly or
annual gross outlays reported in the SBR to ensure that all required payments for
reporting purposes were captured. As a result of the difficulty in reconciling SBR outlays
to improper payment programs, $12.3 billion in outlays were not reviewed for improper
payments but should have been. As a result, the USD(C)/CFO did not provide accurate
improper payment estimates.

3
    The Improper Payment percent total is an auditor-calculated amount, not the total of the percentages.

                                                       5


In addition to the DoD statistical sampling and projection of errors as required in the
IPERA law, the USD(C)/CFO monitored and reported on actual improper payments in its
Quarterly High Dollar Improper Payment Report as required under Executive Order
13520, “Reducing Improper Payments and Eliminating Waste in Federal Programs.” In a
prior DoD Inspector General Report No. D-2011-050, “DoD Needs to Improve High
Dollar Overpayment Review and Reporting,” March 16, 2011, we recommended that the
DoD develop a methodology that included procedures to review additional sources for
high dollar overpayments including results from investigations, audit reports, and
management reports. The USD(C)/CFO agreed with the recommendation and started
procedures to review other sources.

The estimated amount of improper payments for the commercial pay program does not
fully disclose all the positive actions of Defense activities to identify and recover
payments. During FY 2012, the Defense Logistics Agency Troop Support activity began
recovering payments it funded on a subsistence contract from December 2005 through
September 2011 totaling $756.9 million. The Defense Logistics Agency indicated that
recoveries were ongoing at a rate of approximately $21 million per month since
March 2012. Additional sources were the Defense Contract Audit Agency’s audits and
the subsequent recovery actions of contracting officers. The April 1, 2012, thru
September 30, 2012 DoD Inspector General Semiannual Report to Congress showed that
contracting officers initiated actions during the period to disallow4 $692.0 million of
costs questioned in Defense Contract Audit Agency contract audits.

Corrective Actions to Further Reduce
Improper Payments
USD(C)/CFO met the IPERA requirement to publish corrective actions plans. OMB
Circular A-123, appendix C, part I, states that agencies should use the results of their
statistical sampling measurements to identify the root causes of improper payments, and
implement corrective actions to prevent and reduce improper payments.

In the FY 2012 AFR, USD(C)/CFO published corrective action plans for each of the
programs susceptible to significant improper payments. In most cases, the corrective
actions were in progress through the year. For example, the DoD, primarily through
DFAS, continued to work with Components and Military Services to advise them of the
results of payment reviews and the associated reasons for the errors.

Reported Improper Payment Rates were Below the OMB
Established Threshold
USD(C)/CFO met the IPERA requirement to report improper payment rates of less than
10 percent for each estimated program. OMB Circular A-123, appendix C, part II,
requires agencies to report a gross improper payment rate of less than 10 percent for each
program with an improper payment estimate. The DoD did not report any payment
programs with improper payment rates above 10 percent.

4
    Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.

                                                        6


The total dollars disbursed and total dollar amounts of improper payments were high;
however, the percentages of improper payments were relatively low. Improper payment
rates for seven of the eight payment programs were below 0.25 percent. The DFAS
Travel Pay program, which does not include USACE travel, had the highest reported
improper payment rate at 5.00 percent. The overall improper payment rate for FY 2012
was 0.13 percent.

Improper Payment Estimates Increased for One of the
Eight Payment Programs
USD(C)/CFO did not meet the IPERA requirement to meet annual reduction targets.
OMB Circular A-123, appendix C, part II, defines compliance as having “published, and
has met, annual reduction targets for each program assessed to be at risk and measured
for improper payments.” USD(C)/CFO set a FY 2012 reduction target for DFAS Travel
Pay at 3.27 percent in the DoD FY 2011 AFR. However, the improper payment estimate
reported in the DoD FY 2012 AFR for DFAS Travel Pay was 5 percent of total outlays,
or $419.3 million. We determined that this occurred because authorizing officials’
reviews of travel vouchers were not adequate to prevent improper payments. As a result,
improper payments were increasing in travel, and the DoD did not achieve the improper
payment reductions intended in IPERA for DFAS Travel Pay or fully comply with
IPERA in FY 2012.

Authorizing/certifying officials are responsible for verifying that:

      expenses are valid, both the type and the amount;
      receipts are attached for all lodging and expenses that are $75 or more;
      scanned receipts show that payment was made and are legible;
      amounts and dates for the expenses on the voucher match the receipts; and
      methods of reimbursement are correct for each expense type.

DFAS Post-Pay review identified several causes for the increased improper payments
including:

      invalid signatures and approval dates, 17.5 percent of total errors ($368,263.15);
      incorrect meal rates, 11.5 percent of total errors ($242,518.21);
      missing payee information, 10.8 percent of total errors ($227,655.76); and
      lodging paid without receipt, 7.4 percent of total errors ($154,860.44).

The DoD would not have made these improper payments if the authorizing/certifying
official conducted an adequate review of the travel voucher prior to payment. In order
for the DoD to reduce improper payments in the travel pay program and be compliant
with the requirements of the IPERA, the USD(C)/CFO should consider working with
Military Department and Defense Agencies to develop metrics and quality assurance
goals. The USD(C)/CFO should also develop programmatic corrective action plans for
authorizing/certifying officials who certify vouchers that result in an improper payment,
including holding those officials financially liable where appropriate.


                                              7


DoD Also Met an Additional OMB Requirement to Report
on Efforts to Recover Improper Payments
USD(C)/CFO also met the OMB Circular A-123, appendix C, part I requirement to report
information on efforts to recapture improper payments. USD(C)/CFO stated in the
FY 2012 AFR that the Department uses a number of methods to prevent, identify, and
collect improper payments, to include contract claims audited by an external contractor
utilized by the TRICARE Management Activity and internal DoD staff to recapture
overpayments and manage debt collection. The DoD did not use external payment
recapture auditors instead it utilized internal payment recapture auditing processes to
identify and recover outstanding overpayments.

DFAS has implemented a centralized offset program to look across Defense agencies for
opportunities to offset debts within the first 90 days of delinquency. Once this deadline
passes, DFAS transfers the debts to the Department of the Treasury to utilize all debt
collection tools available to increase the likelihood of collecting the debt. The DoD
program officials requested and confirmed nearly 1,200 offsets totaling approximately
$13 million during FY 2012 using the centralized offset program.

According to the FY 2012 AFR, the Department also is working on initiatives to
standardize Treasury FedDebt5 profiles for all DoD programs and establish new cross-
servicing programs for many of its medical installations operated by the TRICARE
Management Activity and the Army Medical Command.

Disclosures on Accuracy and Completeness Showed
Weaknesses in Improper Payments Reviews
OMB Circular A-123, appendix C, part II, states that the agency Inspector General, as
part of its improper payment review, should also evaluate the accuracy and completeness
of the DoD reporting. During the audit, we noted that USD(C)/CFO had disclosed, in the
AFR, weaknesses in the accuracy and completeness of the DoD reporting.

Specifically, the USD(C)/CFO reported that there were problems with the completeness
and accuracy of the DoD improper payment review and the information it reported. The
USD(C)/CFO reported that:

    		 The SBR was not auditable, and as a result, the DoD could not reconcile outlays
        to the quarterly or annual gross outlays reported in the SBR to ensure that all
        required payments for reporting purposes were captured; and

    		 Disbursements in the Navy Enterprise Resource Planning System, totaling
        approximately $1.4 billion, were not reviewed or included in the FY 2012 AFR


5
  FedDebt supports the Federal government's delinquent debt collection programs, which were centralized
in Treasury/FMS by the Debt Collection Improvement Act of 1996. The FedDebt system maintains
records on individuals and organizations who owe delinquent debt(s) to the U.S. Government.

                                                   8


       because the Navy’s sampling and review plan was not in place early enough in
       FY 2012 to report improper payments.

We agree that those areas need improvement before the DoD can provide complete and
accurate information. Reconciliation would have ensured that the DoD included all
payments and programs in its improper payment reviews and may have identified
additional areas for review. DFAS provided a partial reconciliation that showed that
$12.3 billion in outlays that were not reviewed for improper payments but should have
been. As a result, the USD(C)/CFO did not provide accurate improper payment
estimates.

In previous reports, listed in the Appendix, we identified similar problems and issued
recommendations to correct the areas that the DoD disclosed in its AFR. As a result, we
are not making additional recommendations to improve the accuracy and completeness of
the reporting until the DoD is able to take corrective actions on the recommendations and
weaknesses it identified in the AFR.

Remediation for Non-Compliance
OMB Circular A-123, Appendix C, Parts I and II states that:

       Agencies that are not compliant with IPIA must complete several actions. For agencies that are
       not compliant for one fiscal year, within 90 days of the determination of non-compliance, the
       agency shall submit a plan to the Senate Homeland Security and Government Affairs Committee
       and the House Committee on Oversight and Governmental Reform describing the actions that the
       agency will take to become compliant. The plan shall include:

                Measurable milestones to be accomplished in order to achieve compliance for each
                 program or activity;
                The designation of a senior agency official who shall be accountable for the progress of
                 the agency in coming into compliance for each program or activity; and
           		   The establishment of an accountability mechanism, such as a performance agreement,
                 with appropriate incentives and consequences tied to the success of the senior agency
                 official in leading agency efforts to achieve compliance for each program and activity.

The DoD was not compliant with the requirement to meet reduction targets for the DFAS
Travel Pay payment program. The USD(C)/CFO should, as required by Public Law
111-204 and implementing guidance, develop and submit a plan on the actions the
agency will take to become compliant.

Management Corrective Actions
USD(C)/CFO reported that the DoD was working to improve business and financial
processes, controls, and systems to achieve financial statement audit readiness by
September 30, 2017, as required by Congress. Full details on the DoD efforts to achieve
audit readiness are available in the DoD Financial Improvement and Audit Readiness




                                                    9


Plan.6 In addition, the timing of issues related to the review of Navy Enterprise Resource
Planning System payments only affected FY 2012 reporting.

Recommendations, Management Comments, and
Our Response
We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD work with Military Departments and Defense Agencies to:

        1. Develop metrics and quality assurance goals as well as programmatic
corrective action plans for authorizing/certifying officials certifying vouchers that
result in an improper payment, including holding those officials financially liable
where appropriate.

      2. Develop and submit the required remediation plan to the appropriate
congressional committees within 90 days of this report.

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments
The Deputy Chief Financial Officer responded on behalf of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD. The Deputy Chief Financial
Officer agreed with the recommendations and stated that the Department has been
working to improve internal controls and training for travelers and approving officials.
The Deputy Chief Financial Officer also stated that the Department will submit the
remediation plan within the required 90-day deadline to the appropriate congressional
committees.

Our Response
Comments from the Deputy Chief Financial Officer were responsive. Therefore, no
further comments are required.




6
 The DoD Financial Improvement and Audit Readiness reports are available on the DoD Comptroller’s
website, http://comptroller.defense.gov/fiar/

                                                10


Appendix. Scope and Methodology
We conducted this performance audit from October 2012 through March 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine the DoD compliance with IPERA requirements, we obtained and reviewed
the “Improper Payment and Payment Recapture Programs” report published in
Addendum A, “Other Accompanying Information,” of the FY 2012 AFR. We also
obtained and reviewed Public Law 111-204 and OMB Circulars A-123 and A-136. We
then reviewed the methodology used to conduct program sampling and projection and
requested information from personnel from the USD(C)/CFO, DFAS, TRICARE
Management Activity, and USACE to obtain details on the reporting process. We
gathered and reviewed supporting documentation used to support program estimates,
payment recapture efforts and results, reduction targets, and corrective actions reported
by the DoD.

Use of Computer-Processed Data
We did not rely on computer-processed data.

Use of Technical Assistance
During the audit, we requested and received technical assistance from the DoD Office of
Inspector General Quantitative Methods Division. They determined “The sampling
methodology used by DFAS to determine the error rate (attribute projection) for
commercial payments is acceptable. The sample size used is sufficient to calculate
improper payments error rate/percentage within the given parameters.”

The SBR was not auditable, and as a result, the DoD could not reconcile outlays to the
quarterly or annual gross outlays reported in the SBR to ensure that all required payments
for reporting purposes were captured. DFAS identified $12.3 billion in outlays that were
not reviewed for improper payments but should have been. As a result, the USD(C)/CFO
did not provide accurate improper payment estimates.

Prior Coverage on Improper Payments
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued nine reports discussing
improper payments, including a DoD IG audit of FY 2011 Compliance with IPERA.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.




                                           11


GAO
GAO Report No. GAO-09-442, “Significant Improvements Needed in DOD’s Efforts to
Address Improper Payment and Recovery Auditing Requirements,” July 29, 2009.

DoD IG
DoD IG Report No. DODIG-2012-130, “DFAS Controls Over Duplicate Payments in
One Pay Were Generally Effective, But There Were Opportunities for Improvement,”
September 14, 2012.

DoD IG Report No. DODIG-2012-065, “DoD Compliance With the Requirements of the
Improper Payments Elimination and Recovery Act,” March 15, 2012.

DoD IG Report No. D-2011-093, “Active Duty Military Personnel Accounts Were
Generally Valid and Secure, but DoD May Have Made Improper Payments,” July 27,
2011.

DoD IG Report No. D-2011-050, “DoD Needs to Improve High Dollar Overpayment
Review and Reporting,” March 16, 2011.

DoD IG Report No. D-2010-037, “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010.

DoD IG Report No. D-2009-072, “Monitoring PowerTrack Payments for DoD Freight
Transportation,” April 9, 2009.

DoD IG Report No. D-2008-132, “Ocean Freight Transportation Payments Using
PowerTrack (FOUO),” September 26, 2008.

DoD IG Report No. D-2008-096, “Identification and Reporting of Improper Payments by
the Defense Logistics Agency,” May 20, 2008.




                                        12


Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                  Click to add JPEG file
